                                                                        Office of Public Affairs
                                                                        U.S. Department of Homeland Security




                                                                         June 23, 2005



News Release                                                             Contact: Tim Counts
                                                                         (952) 853-2602




              ILLEGAL ALIENS WITH HAZMAT LICENSES ARRESTED
                      Multi-agency investigation closes security vulnerabilities

CHICAGO—Six illegal aliens who had been
issued Illinois commercial drivers licenses with
hazardous material endorsements have been
arrested in the last two weeks as a result of an
investigation conducted by U.S. Immigration and
Customs Enforcement (ICE), the Social Security
Administration’s Office of the Inspector General,
U.S. Department of Transportation and the Illinois
Secretary of State Police.

All six men have been placed in deportation
proceedings. A seventh man was also arrested during the investigation and is being criminally
charged by the State of Illinois for falsely applying for and obtaining a drivers license. He too will
face deportation upon resolution of the state charges. Those arrested are from Belize, Jordan (2),
Mexico, Mongolia and the Philippines (2).

“This cooperative law enforcement effort has closed a security vulnerability that might have resulted
in dire consequences,” said Special Agent-in-Charge Elissa Brown of the Chicago ICE office. “This
is a national security issue. Illegal aliens should not have the freedom to transport hazardous
materials throughout the United States.”

The commercial drivers licenses of those arrested were issued by the State of Illinois prior to July
2004. Since then, procedures for obtaining an Illinois drivers license have been tightened. The state
now cross-references the names, dates of birth and social security numbers of applicants to ensure
they match. In addition, Illinois now uses 12-point facial recognition technology to search databases
for duplicate licenses and identification cards.


Page 1 of 2                                                                     www.ice.gov

Ver. 1.05
Page 2 of 2



The Social Security Administration has also tightened procedures affecting the issuance of drivers
licenses since the terrorist attacks of September 11, 2001. The Social Security Administration now
requires certification from the Department of Homeland Security (DHS) before issuing social
security numbers—which are required to obtain an Illinois drivers license—to aliens in the U.S. on
temporary visas.

“With the Secretary of Transportation's full support, we have made combating CDL fraud one of
our top priorities, and have conducted investigations in 23 states since 2000,” said Assistant Special
Agent-in-Charge Craig Singleton of the Chicago Region Department of Transportation Office of
Inspector General. “As we previously reported, given all of the potential implications to safety and
security, it is important to ensure that those obtaining commercial drivers licenses with a hazmat
endorsement demonstrate citizenship or legal presence.”

In addition to those arrested, ICE agents are seeking 10 additional individuals they believe are in the
U.S. illegally and who possess Illinois drivers licenses with hazardous materials endorsements.

This investigation was carried out in coordination with the Transportation Security Administration’s
(TSA) Hazmat Threat Assessment Program. This program screens commercial drivers with
hazardous materials endorsements for potential terrorist threats.


                                                  # ICE #

U.S. Immigration and Customs Enforcement was established in March 2003 as the largest investigative arm of the
Department of Homeland Security. ICE is comprised of five integrated divisions that form a 21st century law
enforcement agency with broad responsibilities for a number of key homeland security priorities.
